United States Department of Agriculture
Office of Inspector General




USDA's Response to Colony
Collapse Disorder




                                          Audit Report 50099-0084-HY
                                          January 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:         January 20, 2012


AUDIT
NUMBER:        50099-0084-Hy

TO:            Catherine E. Woteki
               Under Secretary
               Research, Education, and Economics

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       USDA’s Response to Colony Collapse Disorder


This report presents the results of our audit of the U.S. Department of Agriculture’s Response to
the Colony Collapse Disorder crisis. Your response to the official draft report, dated,
November 4, 2011, is included in its entirety in the audit report, with excerpts and the Office of
Inspector General’s position incorporated into the relevant sections of the report. Based on the
written response, we have accepted management decision for all recommendations in the report,
and no further response to us is necessary.

Please note that Departmental Regulation 1720-1 requires final action to be reached on all
recommendations within 1 year of management decision to avoid being listed in the
Department’s annual Performance and Accountability Report. Please follow your office’s
internal procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: Survey and Data Collection ..................................................................6
   Finding 1: USDA Needs To Perform a Comprehensive Survey of Honey Bee
   Colony Production and Health ............................................................................6
         Recommendation 1 ........................................................................................9
         Recommendation 2 ........................................................................................9
         Recommendation 3 ........................................................................................9
         Recommendation 4 ......................................................................................10
Scope and Methodology .........................................................................................11
Abbreviations .........................................................................................................14
Agency’s Response .................................................................................................15
USDA’s Response to Colony Collapse Disorder (50099-0084-HY)

Executive Summary

After the large-scale, unexplained losses of managed honey bee colonies in the United States
during the winter of 2006-2007, investigators identified a set of symptoms that were termed
Colony Collapse Disorder (CCD). The main symptom of CCD is the low number or absence of
adult honey bees in a hive, but with a live queen still present. CCD threatens the production of
honey and the production of crops dependent on bees for pollination. Bee pollination is
responsible for $15 billion annually in added crop value, particularly for specialty crops such as
nuts, berries, fruits, and vegetables. The Department of Agriculture’s (USDA) Agricultural
Research Service (ARS) and National Institute of Food and Agriculture (NIFA) 1 co-chaired a
collaborative effort through a newly-formed CCD Steering Committee2 to define an approach to
CCD with a number of other Federal agencies, State departments of agriculture, universities, and
private research groups. They issued a CCD Action Plan in 2007 to address the CCD crisis
through four components: survey and data collection, analysis of samples, hypothesis-driven
research, and mitigation and preventative action. The Office of Inspector General (OIG)
initiated this audit to evaluate the effectiveness of USDA’s implementation of its response to the
CCD crisis, as described in the 2007 CCD Action Plan, and USDA’s implementation of the
applicable provisions of the 2008 Farm Bill.3

During this audit, we reviewed the actions of seven USDA agencies responding to the CCD
crisis: ARS, NIFA, the National Agricultural Statistics Service (NASS), the Animal and Plant
Health Inspection Service (APHIS), the Natural Resources Conservation Service (NRCS), the
Risk Management Agency (RMA), and the Farm Service Agency (FSA). Overall, we found that
USDA’s implementation of the CCD Action Plan was adequate in three of the plan’s four
components: analysis of samples, hypothesis-driven research, and mitigation and preventative
action. With the exception of not completing a comprehensive survey of honey bee colony
reduction and loss due to CCD, the various agencies’ actions were appropriately responsive to
the CCD Action Plan and consistent with the requirements of the 2008 Farm Bill.4

We found that although the CCD Steering Committee developed the CCD Action Plan
approximately 4 years ago, USDA has not completed comprehensive surveys of honey bee
colony production and colony loss due to CCD. This occurred because of insufficient funds and
because the CCD Steering Committee did not adequately communicate the need for performing
such a comprehensive survey. No one on the CCD Steering Committee was specifically

1
  Formerly the Cooperative State Research, Education, and Extension Service.
2
  The original CCD Steering Committee included representatives from four USDA agencies (ARS, NIFA, the
  Animal and Plant Health Inspection Service, and the Natural Resources Conservation Service), the Environmental
  Protection Agency, the Department of Defense, Pennsylvania State University, and Perdue University. As of June
  2010 USDA’s Office of Pest Management Policy had joined the committee, by which time neither the Department
  of Defense nor the two universities were still members.
3
  The Food, Conservation, and Energy Act of 2008 (H.R. 2419).
4
  We determined that RMA is not implementing a crop insurance program for CCD losses sustained by beekeepers,
  because its contracted study of insurance policies for bees (completed in August 2010) reported that an insurance
  program is not feasible.

                                                                        AUDIT REPORT 50099-0084-HY                1
authorized or designated to ensure that all parts of the CCD Action Plan were completed and that
funding problems were resolved. The 2008 Farm Bill authorized $2.75 million in annual funding
for fiscal years 2008 through 2012 that could potentially have been used for this purpose.
However, Congress never appropriated the funds and USDA officials did not take other
measures to identify funds that might have been used to complete the surveys. As a result, the
true extent of CCD in the United States has not been adequately assessed, despite USDA's use of
significant resources for honey bee research and to address CCD. USDA’s strides in combating
CCD could be compromised by the lack of an adequate survey and data collection component,
the lack of which impacts USDA’s ability to assess the actual extent and prevalence of CCD in
the United States. We believe if USDA conducts a comprehensive, nationwide survey, it would
have baseline information to better allocate scarce resources to mitigate and prevent CCD.

Overall, OIG concluded that the Under Secretary for Research, Education, and Economics needs
to strengthen oversight to ensure that USDA performs comprehensive surveys of honey bee
colony production and health.5 The Under Secretary should also facilitate communications and
funding to complete the surveys, so that the actual extent of CCD can be determined.

Recommendation Summary
We recommend that the Under Secretary seek adequate funding for NASS to conduct
comprehensive surveys of honey bee colony production and health, provide the Steering
Committee with written authority to adequately conduct a comprehensive survey of honey bee
colony production and colony loss, and include NASS on the CCD Steering Committee. Further,
we recommend that the Under Secretary assign responsibility and delegate authority to a USDA
official to monitor the implementation of the CCD Action Plan and to follow up to ensure that all
actions under the plan are completed.


Agency Response
In the written response to the audit report, dated November 4, 2011, the Under Secretary
generally concurred with all the audit findings and recommendations. The response is
incorporated in its entirety the end of the report.


OIG Position

Based on the Under Secretary’s response, we are accepting management decisions on all
recommendations in the report.




5
    Responsibilities of the Under Secretary for Research, Education, and Economics include oversight of ARS, NIFA,
    and NASS. In July 2007, the Under Secretary announced in a press release that USDA researchers had finalized a
    CCD Action Plan.

2        AUDIT REPORT 50099-0084-HY
Background and Objectives

Background
Beekeepers in the U.S. reported large-scale, unexplained losses of managed honey bee colonies
during the winter of 2006-2007. Colony losses occurred when bees failed to return to their hives,
which was an abnormal phenomenon for honey bees. Investigators identified a set of symptoms
for this dramatic and unprecedented decline and it was termed Colony Collapse Disorder (CCD).
The main symptom of CCD is the absence or low number of adult honey bees in a hive, even
though a live queen is present. Often there is still honey in the hive, and immature bees are
present. In addition to honey production, CCD also threatens the production of crops dependent
on bees for pollination. Bee pollination is responsible for $15 billion annually in added crop
value, particularly for specialty crops such as nuts, berries, fruits, and vegetables. In 2006,
pollinator-dependent crops reportedly comprised an estimated 23 percent of total U.S.
agricultural production.

To address this crisis the Department of Agriculture (USDA) formed the CCD Working Team,
which consisted of academic, private, and Federal scientists. The CCD Working Team’s purpose
was to coordinate the efforts of USDA’s research agencies6 in defining an approach to combating
CCD. During a 2-day workshop in April 2007, a newly-formed CCD Steering Committee of
Federal program leaders and land-grant university scientists and administrators identified critical
research and other actions that would be needed. The Agricultural Research Service (ARS) and
the National Institute of Food and Agriculture (NIFA) co-chaired this Steering Committee,
which included representatives from the Animal and Plant Health Inspection Service (APHIS),
the Natural Resources Conservation Service (NRCS), the Department of Defense, the U.S.
Environmental Protection Agency, and two universities (Pennsylvania State University and
Purdue University). The CCD Steering Committee has no authority or responsibility over self-
organized teams of CCD researchers or their work. Although the CCD Steering Committee was
not established under the Federal Advisory Committee Act,7 representation on the committee
was later limited to Federal agencies. This was done at the advice of the Office of the General
Counsel, to ensure compliance with the Federal Advisory Committee Act.

A collaboration of government and non-government apiary8 experts predicted that beekeepers
would be unable to meet the pollination demand for specialty crops unless researchers
discovered a solution to CCD. In June 2007, the CCD Steering Committee and CCD Working
Team developed a CCD Action Plan, which strategized how to address the CCD problem. Their
plan addressed the problem through four components. The first component, survey and (sample)
data collection, focuses on developing standardized survey processes to provide a baseline
assessment of bee production and bee health. The second component, analysis of existing
samples, focuses on analyzing previously collected samples to identify CCD causes. The third

6
  The Agricultural Research Service and the National Institute of Food and Agriculture (formerly the Cooperative
  State Research, Education, and Extension Service).
7
  Public Law (P.L.) No. 92-463, 86 Stat. 770 (1972) (codified in the Appendix to Title 5 United States Code
(U.S.C.)).
8
  An apiary (also known as a bee yard) is a place where beehives of honey bees are kept.

                                                                        AUDIT REPORT 50099-0084-HY                 3
component, research, focuses on identifying factors affecting honey bee health, either
individually or in combination.9 The fourth component, mitigative and preventive measures,
focuses on improving bee health and habitat and countering known mortality factors. The CCD
Action Plan identifies tasks that USDA agencies and others were to perform to support the plan’s
critical research and response needs under the four components.

While the CCD Action Plan addressed causes and potential cures for CCD, the 2008 Farm Bill 10
authorized funding for research for fiscal years 2008 through 2012 and included provisions
intended to reduce the impact of CCD. Annual authorizations totaled $10 million for pollinator
protection through research and extension grants, $7.25 million to build ARS’ research capacity
to study CCD and other threats to pollinator health, and $2.75 million for honey bee pest and
pathogen surveillance. The 2008 Farm Bill provided potential monetary relief for apiary
producers through either disaster payments or insurance and monetary incentives to improve
habitat for managed and native pollinators on land enrolled in conservation programs. This was
to be administered by NRCS, the Farm Service Agency (FSA), and the Risk Management
Agency (RMA). Specifically, NRCS and FSA were permitted, but not required, to provide
increased payments to producers who participate in conservation programs to improve managed
and native pollinator habitats. RMA was to enter into a contract to study the feasibility of
providing insurance to apiary producers. The 2008 Farm Bill required the Secretary to submit an
annual report to Congress on the response to honey bee CCD, and to describe the progress made
by USDA in investigating the cause or causes of honey bee colony collapse and the progress
made in finding appropriate strategies to reduce colony loss.


Objectives
The overall objective of this audit was to evaluate the effectiveness of USDA’s implementation
of its response to the CCD crisis, as described in the CCD Action Plan, and its implementation of
the applicable provisions of the 2008 Farm Bill. Specifically, our objectives were to:

          (1) determine if standardized survey procedures were developed by the National
              Agricultural Statistics Service (NASS) and APHIS as recommended by the CCD
              Action Plan, and whether ARS, NIFA, NASS, and APHIS sufficiently managed
              new survey and sample data collection;
          (2) assess whether ARS effectively managed analysis of existing samples;
          (3) evaluate whether ARS and NIFA effectively performed their research
              responsibilities to identify the causes of CCD;
          (4) determine whether ARS, APHIS, NIFA, and NRCS effectively implemented
              measures to mitigate and prevent CCD;




9
  The CCD Action Plan identified four possible causes for CCD: new or reemerging pathogens; bee pests;
environmental and nutritional stresses; and pesticides.
10
   The Food, Conservation, and Energy Act of 2008 (H.R. 2419).

4     AUDIT REPORT 50099-0084-HY
(5) assess whether RMA implemented a crop insurance program for CCD losses
    sustained by beekeepers, and whether RMA adequately contracted for studies of
    insurance policies for bees; and
(6) determine FSA’s progress in implementing the 2008 Farm Bill’s conservation
    practices for pollinators and the emergency assistance program for honey bee
    producers for CCD losses by reviewing controls established at the Headquarters
    level.




                                                  AUDIT REPORT 50099-0084-HY         5
Section 1: Survey and Data Collection

Finding 1: USDA Needs To Perform a Comprehensive Survey of Honey Bee
Colony Production and Health
Approximately 4 years have passed since the CCD Action Plan was developed, and although the
Plan called for a comprehensive survey of honey bee colony production and colony loss due to
CCD, we found that USDA has not completed the survey. We also found that although the 2008
Farm Bill authorized $2.75 million in annual funding between 2008 and 2012 that could
potentially have been used for this purpose, Congress never actually appropriated the funds, and
Departmental officials did not take other measures to identify funds that might have been
available to use for this purpose. We attributed this to the fact that no one on the CCD Steering
Committee was specifically authorized or designated to ensure that all parts of the CCD Action
Plan were completed and that funding problems were resolved. The CCD Steering Committee
also did not adequately communicate the need, particularly to NASS, of performing such a
comprehensive survey. This may have resulted from the fact that NASS was not a member of
the CCD Steering Committee. As a result, the true extent and impact of CCD in the United
States has not been adequately assessed, despite USDA's use of significant resources for honey
bee research to address CCD. We believe that if USDA conducts a comprehensive nationwide
survey, it would have baseline information that could be used to better allocate scarce resources
to mitigate and prevent CCD.

The 2007 CCD Action Plan described the need for new surveys to determine the extent of CCD
in the United States and the status of honey bee colony production and health. To accomplish
this goal the Action Plan required, as a "Very High" priority, that NASS modify its annual honey
survey to include information on pollination services and colony loss. The Action Plan
explained that much-needed baseline data could not be obtained from NASS' existing Honey
Survey. Criticisms by the National Academy of Sciences and the National Research Council
supported the concern that NASS' annual survey of the beekeeping community did not monitor
pollinating colonies unless they also produced honey. This limited the extent to which data
could be extrapolated to estimate pollination services provided by the honey bee. In addition,
NASS' methods resulted in undercounting because beekeepers with fewer than five hives were
excluded. This could adversely affect USDA’s ability to determine whether CCD is more
prevalent among large or small colonies. Further, migratory beekeepers’ colonies, leased in
different regions of the country for different seasons, could be counted more than once.

The Steering Committee has, on its own, no means to collect information on the number of hives
used for pollination. Therefore, the Committee must rely on NASS for this service. However,
communications between NASS officials and members of the CCD Steering Committee were
limited and NASS was not represented on the Committee.11 Although NASS officials made


11
     CCD Steering Committee officials stated that NASS was invited by email to assist in developing the CCD Action
     Plan and to participate in conference calls about the USDA response to CCD. However, NASS never received an
     official request from the Steering Committee to help develop a survey to document pollination services or CCD
     losses.

6        AUDIT REPORT 50099-0084-HY
several informal suggestions to the Steering Committee in 2008, their discussions did not cover
this area and NASS officials were not asked to change their existing survey procedures.

The purpose of the Steering Committee is to enhance communication, coordination, and
implementation of the Federal response to CCD, especially to coordinate CCD research,
education, and extension responses among Federal agencies. The Steering Committee is
currently made up of representatives from five USDA agencies (ARS, NIFA, APHIS, NRCS,
and the Office of Pest Management Policy) and the U.S. Environmental Protection Agency. In
2007, the former Secretary of Agriculture endorsed the activities of the CCD Steering Committee
and the CCD Action Plan, and made statements in 2007 and 2008 that implied its authority to
implement the mandates of the CCD Action Plan. However, there is no written charter outlining
the Committee’s authorities and responsibilities, or any clear process for it to follow in
coordinating USDA agency activities. There have been no Federal Register notices or
proceedings under the Federal Advisory Committee Act.12 The Steering Committee is not
specifically authorized to provide oversight concerning the implementation of the CCD Action
Plan. No one on the CCD Steering Committee has been designated to ensure that the various
parts of the plan are completed and to follow up on problems, including insufficient funding.

The CCD Steering Committee’s co-chairs believed that the lack of comprehensive NASS
surveys did not preclude the performance of other work under the CCD Action Plan, particularly
experimental work that looked at causes of bee decline and ways to mitigate this decline.
However, the Steering Committee agreed that a comprehensive survey would help identify
where CCD was prevalent and on what potential causal factors to focus, i.e., pests, pathogens,
poor nutrition, and or pesticides. They felt that comprehensive NASS surveys would have been
a good reference point for CCD colony losses, and that they would be useful for assessing the
extent of the CCD problem. The Steering Committee also felt that data from a NASS colony
decline survey might provide clues to the causes of honey bee decline, if correlated with other
data, such as pesticide use patterns.13

Currently, NASS conducts an annual survey of honey producers only. Beekeepers that provide
pollination services only are excluded. The survey report publishes the number of honey
producing colonies, yield per colony, total honey production, stocks of honey, average price per
pound, and value of production. For the 5-year census of agriculture, NASS conducts a survey
that collects the number of bees owned, total colonies sold, and honey collected. However,
NASS does not specifically collect any data concerning pollinator losses. Therefore, national
surveys of pollinator colonies are needed to provide a more accurate estimate of honey bee hive
populations, to include hives used for pollination as well as honey. These surveys were also
intended to develop a standardized measure of pollinator decline due to CCD and other bee
health issues each year. To meet this requirement of the CCD Action Plan, it would be necessary
for NASS to modify its data collection methodologies. NASS would have to build its list of
products to be surveyed and change the way it performs the annual honey survey. This would
involve adding questions about pollination services and colony loss to NASS' annual honey
survey. NASS officials wanted additional funds to expand the honey survey to include colony


12
     P.L. No. 92-463, 86 Stat. 770 (1972) (codified in the Appendix to Title 5 U.S.C.).
13
     NASS collects, analyzes, and disseminates agricultural chemical usage data.

                                                                            AUDIT REPORT 50099-0084-HY   7
losses. They told us that two new surveys would be needed to address colony loss and
pollination services, which had not been communicated to the CCD Steering Committee. NASS
officials estimated that the annual costs for quarterly colony loss surveys would be $450,000.14
In addition, they estimated that the cost of conducting an annual pollination survey would be
$1.5 million.

To support the Action Plan, researchers from ARS and APHIS assisted in conducting several
surveys to better identify and refine the symptoms of CCD-affected bee populations, to assess
winter colony losses, and to document the presence of diseases, pests, and parasites in colonies
with poor health. However, these surveys were either of insufficient scope, or otherwise did not
obtain sufficient information to provide a comprehensive baseline for honey bee production,
including pollination services, and losses due to CCD. The 2009 CCD Progress Report to
Congress documented these efforts, but also noted that NASS had no resources for a survey that
included information on pollination services, colony loss, and honey production. The 2010 CCD
Progress Report to Congress stated that NASS had discussed methods and procedures to
incorporate colony loss questions into the current NASS national honey production survey, but
again reported that NASS lacked the resources for a comprehensive survey.

Establishing an adequate control environment includes assigning authority and responsibility in a
way that contributes to internal control.15 We believe that the process of developing and funding
comprehensive NASS surveys of honey bee colony production and colony loss might have been
expedited if higher-level officials had established an adequate control environment and assigned
clear responsibility for conducting the survey.

USDA needs to provide funding for NASS to conduct a comprehensive survey of honey bee
colony production and health. Given the importance of honey bee pollination to U.S. agriculture
and the possible damage that could be caused by CCD, funding should be requested from
Congress or reprogrammed from other research and extension areas. USDA needs to ensure that
the CCD Steering Committee has the necessary written authority to get the needed
comprehensive survey done accurately and timely. In addition, USDA should include NASS on
the Steering Committee, to improve overall coordination between that agency and the Committee
and to increase the likelihood that the comprehensive survey envisioned in the 2007 CCD Action
Plan will be completed in a timely manner. USDA needs to assign responsibility and delegate
authority to a USDA official to monitor the implementation of the CCD Action Plan and to
follow up to ensure that all of the plan’s actions are completed. We recommend that the Under
Secretary for Research, Education, and Economics implement the following recommendations:




14
   NASS officials told us that it would actually be more effective to survey colony losses quarterly, rather than
   annually, to capture changes that happen with colonies throughout the year as beekeepers lose and replace bees.
15
   November 1999 GAO report entitled “Standards for Internal Control in the Federal Government” (GAO/AIMD-
   00-21.3.1).

8     AUDIT REPORT 50099-0084-HY
Recommendation 1

Assign responsibility and delegate authority to a USDA official to monitor implementation of the
CCD Action Plan, and to follow up to ensure that all actions under the plan are completed.


Agency Response
The Under Secretary assigned one ARS and one NIFA official joint responsibility for monitoring
and implementing the CCD Action Plan and for following up to ensure that all actions under the
plan are completed. The officials will assume this responsibility on November 1, 2011.

OIG Position
We accept management decision on this recommendation.

Recommendation 2
Provide adequate funding for NASS to conduct comprehensive surveys of honey bee colony
production and health as outlined in the 2007 CCD Action Plan.

Agency Response
The Under Secretary agreed to conduct comprehensive surveys of honey bee colony production
when the U.S. Congress appropriates funds for this purpose. In a followup e-mail, dated
November 28, 2011, one of the officials assigned responsibility for implementing the CCD
Action Plan stated that the CCD Annual Report to Congress for fiscal year 2010, would outline
the need for the comprehensive NASS surveys and request that Congress provide the necessary
funding to perform the surveys. The report would be submitted to Congress by December 31,
2011.

OIG Position
We accept management decision on this recommendation.

Recommendation 3
Provide the Steering Committee with written authority to adequately address the CCD Action
Plan component to conduct a comprehensive survey of honey bee colony production and colony
loss.




                                                            AUDIT REPORT 50099-0084-HY          9
Agency Response
The Under Secretary agreed to draft by December 1, 2011, written authority for the Steering
Committee to conduct the comprehensive survey of honey bee colony production and colony
loss.

OIG Position
We accept management decision on this recommendation.

Recommendation 4
Include NASS on the CCD Steering Committee and ensure that responsibilities, deadlines, and
accountability over goals and objectives are well established.

Agency Response
The Under Secretary agreed with the recommendation and has appointed two NASS officials to
the CCD Steering Committee, effective October 17, 2011. The Steering Committee will ensure
that the CCD Action Plan is updated and that responsibilities, deadlines, and accountability over
goals and objectives are well established.

OIG Position
We accept management decision on this recommendation.




10     AUDIT REPORT 50099-0084-HY
Scope and Methodology
We conducted our audit of USDA’s implementation of its response to the CCD crisis, as
described in the CCD Action Plan, and its implementation of the applicable provisions of the
2008 Farm Bill. We performed our fieldwork in Washington, DC, and Beltsville, MD, at the
national offices of seven USDA agencies: APHIS, ARS, FSA, NASS, NIFA, NRCS, and RMA.

To accomplish our objectives, the audit included review of records; analysis of data; and
interviews with officials from the seven USDA agencies, which included the CCD Steering
Committee’s co-chairs at ARS and NIFA. We performed procedures that specifically targeted
the five objectives of the audit concerning survey and sample data collection, sample analysis,
research, mitigation and prevention, and insurance. We did not contact research sites and
industry officials because we were able to obtain information about their activities from USDA
officials and from the internet.

APHIS

At APHIS Headquarters, we interviewed officials from Plant Protection and Quarantine, which
regulates the import and transit of bees and provides safeguards from risks associated with the
entry, establishment, and spread of animal and plant pests. We reviewed records concerning
their activities under the CCD Action Plan. We focused on the National Honey Bee Survey, the
Bee Diagnostic Network, bee import controls, and resources committed to CCD-related
activities.

ARS

At ARS Headquarters, we determined the status of USDA’s CCD-related intramural research
efforts by reviewing records and interviewing the ARS co-chair of the CCD Steering Committee.
We focused on ARS research projects and CCD Steering Committee operations, including
liaison with other USDA agencies in support of the CCD Action Plan. We evaluated the
adequacy of ARS’ oversight of the review process for honey bee research. We also determined
the status of accomplishments under the CCD Action Plan.

FSA

At FSA Headquarters, we reviewed records and interviewed officials from the Operations
Review and Analysis Staff and the Production, Emergencies, and Compliance Division to
identify apiary-related program changes that they made in response to the 2008 Farm Bill. This
included a review of FSA’s adjustments to conservation programs to encourage pollinator
habitat, as well as a review of FSA’s emergency assistance program for CCD- related apiary
losses under the Emergency Assistance for Livestock, Honey Bees, and Farm-Raised Fish
Program.




                                                           AUDIT REPORT 50099-0084-HY         11
NASS

At NASS Headquarters, we determined program changes made in response to the CCD Action
Plan by reviewing records and interviewing appropriate officials from the Livestock Branch,
which performs surveys of honey producing colonies. We focused on surveys of pollination
services and colony loss.

NIFA

At NIFA Headquarters, we determined the status of USDA’s CCD-related extramural research
efforts by reviewing records and interviewing the NIFA co-chair of the CCD Steering
Committee. We focused on NIFA’s research grant projects and CCD Steering Committee
operations. We evaluated NIFA-funded research according to the CCD Action Plan’s Topics,
Goals, and Objectives.

NRCS

At NRCS Headquarters, we identified program changes made in implementing the 2008 Farm
Bill by reviewing records and interviewing the officials from the external compliance function.
We focused on NRCS’ review of conservation practice standards, its pollinator initiative under
the Conservation Stewardship Program, and its means of encouraging Environmental Quality
Incentives Program practices that would develop and protect pollinator habitats.

RMA

At RMA Headquarters, we interviewed officials from Compliance and reviewed records to
identify program changes resulting from the 2008 Farm Bill’s apiary provisions, focusing on the
crop insurance program for CCD losses and the feasibility of insurance policies for apiaries.

In addition, we determined whether prior OIG and GAO audits conducted in the last 5 years
were relevant to the CCD topics addressed in this audit. We determined, from OIG Investigative
officials, whether ongoing investigative actions might be impacted by this audit. We reviewed
2009 Federal Managers' Financial Integrity Act assurance statements of the seven agencies
involved in our audit, to identify issues that might affect the scope of this audit. We reviewed
ARS’ and NIFA’s most recent Government Performance and Results Act reports to identify
performance measures related to the areas covered in this audit.16 We reviewed a wide variety of
CCD-related information that was available from the internet. This included the 2008 Farm Bill,
the CCD Action Plan, the Secretary’s 2009 and 2010 annual reports to Congress on USDA’s
response to honey bee CCD, the Congressional Research Service’s 2010 report to Congress on
Honey Bee CCD, a Public Broadcasting video (“Silence of the Bees”), and excerpts from the
National Research Council’s 2007 report on the Status of Pollinators in North America.



16
     ARS’ Annual Performance Report for fiscal year 2009 and Performance Plan for fiscal years 2010 – 2012 and
     NIFA’s annual reports.

12         AUDIT REPORT 50099-0084-HY
We performed our fieldwork from July 2010 through April 2011. Our performance review was
conducted in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. In addition, NIFA provided to OIG data from its Current Research
Information System database and its Sustainable Agriculture Research and Education projects
database on bee grants. FSA provided to OIG data from its Emergency Assistance for Livestock,
Honey Bees, and Farm-Raised Fish Program data files on CCD payments. We make no
representations regarding the accuracy or reliability of these data as information system controls
were not part of our audit objective.




                                                           AUDIT REPORT 50099-0084-HY         13
Abbreviations
APHIS ......................... Animal and Plant Health Inspection Service
ARS............................. Agricultural Research Service
CCD ............................ Colony Collapse Disorder
FSA ............................. Farm Service Agency
NASS .......................... National Agricultural Statistics Service
NIFA ........................... National Institute of Food and Agriculture
NRCS .......................... Natural Resources Conservation Service
OIG ............................. Office of Inspector General
RMA ........................... Risk Management Agency
USDA.......................... United States Department of Agriculture




14      AUDIT REPORT 50099-0084-HY
Agency’s Response




                USDA’S
    UNDER SECRETARY FOR RESEARCH,
      EDUCATION, AND ECONOMICS’
       RESPONSE TO AUDIT REPORT




                      AUDIT REPORT 50099-0084-HY   15
                United States     Research             Office                  Room 216W
                Department of     Education            of the Under            Jamie L. Whitten Building
                Agriculture       Economics            Secretary               Washington, DC 20250-0110


November 4, 2011

SUBJECT:       USDA’s Response to OIG Audit Number 50099-84-Hy

       TO:     Gil H. Harden
               Assistant Inspector General for Audit
               Office of Inspector General

   FROM:       Catherine E. Woteki /s/
               Under Secretary, REE
               Chief Scientist, USDA


This memorandum contains a response to the findings and recommendations contained in the audit
report on the Department of Agriculture’s (USDA) response to Colony Collapse Disorder (CCD)
from the agencies that fall within the USDA Research, Education, and Economics (REE) mission area
(Agricultural Research Service, ARS; National Agricultural Statistics Service, NASS; and National
Institute of Food and Agriculture, NIFA).

Recommendation 1: Assign responsibility and delegate authority to a USDA official to monitor
implementation of the CCD Action Plan, and to follow up to ensure that all actions under the plan are
completed.

   REE Response: Working under the general direction of the Under Secretary for REE, […],[…],
   ARS; and […],[…], NIFA, jointly will be responsible for monitoring and implementing the CCD
   Action Plan and for following up to ensure that satisfactory progress is being made for relevant
   actions under the plan contingent upon funding. […] and […] will assume this responsibility on
   November 1, 2011.

Recommendation 2: Provide adequate funding for NASS to conduct comprehensive surveys of
honey bee colony production and health as outlined in the 2007 CCD Action Plan.

   REE Response: NASS will conduct comprehensive surveys of honey bee colony production and
   health as outlined in the 2007 CCD Action Plan when the U.S. Congress appropriates funds for
   this purpose. Because money has not been appropriated for this purpose, it is not possible to
   provide a proposed or actual completion date for this action.

Recommendation 3: Provide the Steering Committee with written authority to adequately address
the CCD Action Plan component to conduct a comprehensive survey of honey bee colony production
and colony loss.

   REE Response: The Under Secretary for REE will, by December 1, 2011, draft written authority
   to the Steering Committee to conduct a comprehensive survey of honey bee colony production
   and colony loss. The survey is contingent upon Congressional appropriations.
Gil H. Harden                                                                                             2

    Risk Management Agency Response: CCD is not a covered cause of loss under the Federal
    crop insurance Apiculture Pilot program. The condition is not addressed in the crop insurance
    policy, and the mortality or disappearance of bees in not covered. The existing Apiculture Pilot is
    based on the rainfall index or vegetative index, which address only the amount of rainfall or
    greenness in the insured area.

Recommendation 4: Include NASS on the CCD Steering Committee and ensure that
responsibilities, deadlines, and accountability over goals and objectives are well established.

    REE Response: The Under Secretary for REE, with assistance from the NASS Administrator,
    has assigned two senior-level NASS staff members, […], […], and […], […], to participate on the
    CCD Steering Committee. The appointment of […] was effective May 2011; […] appointment
    was effective October 17, 2011. The Steering Committee will ensure that the CCD Action Plan is
    updated and that responsibilities, deadlines, and accountability over goals and objectives are well
    established.

cc:
Edward B. Knipling, Administrator, ARS
Cynthia Clark, Administrator, NASS
Chavonda Jacobs-Young, Acting Director, NIFA
Gregory Parham, Administrator, APHIS
William Murphy, Administrator, RMA
Informational copies of this report have been distributed to:

   Administrator, APHIS (4)
      Attn: Agency Liaison Officer (1)
   Administrator, ARS
      Attn: Agency Liaison Officer (5)
   Administrator, FSA
      Attn: Agency Liaison Officer (2)
   Administrator, NASS
      Attn: Agency Liaison Officer (3)
   Director, NIFA (1)
      Attn: Agency Liaison Officer (4)
   Chief, NRCS
      Attn: Agency Liaison Officer (5)
   Administrator, RMA
      Attn: Agency Liaison Officer (2)
   Government Accountability Office (1)
   Office of Management and Budget (1)
   Office of the Chief Financial Officer
    Director, Planning & Accountability Division (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
